USCA11 Case: 20-10700

Date Filed: 02/05/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10700-H
CAMERON DEAN BATES,
Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Florida
ORDER:
To merit a certificate of appealability, an appellant must show that reasonable jurists would
find debatable both (1) the merits of an underlying claim, and (2) the procedural issues that he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473,478 (2000). Cameron
Bates’s motion for a certificate of appealability is DENIED because he failed to make the requisite
showing. His motion for leave to proceed in forma pauperis is DENIED AS MOOT.

/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 1 of 8

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 2:17-cv-14364-KMM
CAMERON DEAN BATES,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
ORDER ON REPORT AND RECOMMENDATION
THIS CAUSE came before the Court upon Petitioner Cameron Dean Bates’ Amended
Motion to Vacate, Set Aside, or Correct Sentence Pursuant to 28 U.S.C. § 2255. (“Mot.”) (ECF
No. 26). The Court referred the matter to the Honorable Lauren Louis, United States Magistrate
Judge, who issued a Report and Recommendation recommending that the Motion be DENIED.
(“R&R”) (ECF No. 47). Petitioner filed objections. (“Objs.”) (ECF No. 52). The matter is now
ripe for review. As set forth below, the Court ADOPTS the R&R. i

i

The Court adopts Magistrate Judge Louis’ R&R with the following alterations: on page one, line
twenty-three, the sentence should read, in part, “§§ 2252(a)(2) and (b)(1)”; on page seven, line
eighteen, the citation should read “(id. at 74-75)”; on page sixteen, line one, the citation should
read “Id. at 1235 n.20 (citing Murray v. Carrier, All U.S. 478, 492 (1986)); on page seventeen,
line 10, the citation should read “Kennedy, 456 U.S. at 676 n.6”; on page eighteen, line fifteen, the
citation should read “(ECF No. 26 at 22-23)”; on page twenty, line seventeen, the citation should
read “Strickland v. Washington, 466 U.S. 668, 687 (1984)”; on page twenty, lines nineteen and
twenty, the quoted language should read “Strickland places the burden on the defendant, not the
state, to show a ‘reasonable probability’ that the result would have been different.”; on page
twenty, line twenty-four, the citation should read “Strickland, 466 U.S. at 690.”; on page twentysix, line twelve, the citation should read “(CRDE 404 at 118:22-24)”; on page thirty-three, line
one, the citation should read “(CRDE 409 at 219)”; and on page thirty-four, line seven, the sentence
should read, in part, “Pursuant to Local Magistrate Rule 4(b) and Fed. R. Civ. P. 72”.

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 2 of 8

I.

LEGAL STANDARD
The Court may accept, reject, or modify, in whole or in part, the findings or

recommendations made by the magistrate judge. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3).
The Court “must determine de novo any part of the magistrate judge’s disposition that has been
properly objected to.” Fed. R. Civ. P. 72(b)(3). A de novo review is therefore required if a party
files “a proper, specific objection” to a factual finding contained in the report. Macort v. Prem,
Inc., 208 F. App’x 781, 784 (11th Cir. 2006). “It is critical that the objection be sufficiently
specific and not a general objection to the report” to warrant de novo review. Id.
II.

BACKGROUND
On August 23, 2012, Petitioner was charged in a two-count indictment with (i) receiving,

between the dates of February 11, 2011 and June 19, 2012, images depicting child pornography,
in violation of 18 U.S.C. § 2252(a)(2) and (b)(1); and (ii) distributing images depicting child
pornography on June 1, 2012, in violation of § 2252(a)(2) and (b)(1). Indictment at 1-2, United
States v. Bates, Case No. 2:12-cr-14054-KMM-l, ECF No. 28 (S.D. Fla. Jan. 5, 2017) (“CR
ECF”). On February 14, 2013, a Grand Jury returned a superseding eighteen-count indictment,
charging Petitioner with eight (8) counts of receiving child pornography, eight (8) counts of
accessing and attempting to access files of child pornography, one (1) count of distributing child
pornography, and one (1) count of possessing a computer that contained child pornography. (CR
ECF No. 197). A jury convicted Petitioner on all (18) eighteen counts and, on June 3, 2013,
Petitioner was sentenced to a 240-month term of imprisonment followed by fifteen (15) years of
supervised release. (CR ECF No. 309). Petitioner appealed the conviction and the United States
Court of Appeals for the Eleventh Circuit vacated the conviction and remanded, finding error in
the voir dire. United States v. Bates, 590 F. App’x 882, 890 (11th Cir. 2014).

2

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 3 of 8

On remand, Respondent sought a second superseding indictment from the Grand Jury,
which returned a six-count indictment, charging Petitioner with four (4) counts of knowingly
receiving images depicting child pornography, one (1) count of distributing child pornography,
and one (1) count of knowingly possessing a computer that contained child pornography. (CR
ECF No. 349). A jury convicted Petitioner on all six (6) counts and, on September 15, 2015,
Petitioner was sentenced to a 240-month term of imprisonment followed by fifteen (15) years of
supervised release. (CR ECF Nos. 385, 394, 395). Petitioner appealed the conviction, arguing
that (1) the Court erred when it admitted certain documents that contained inadmissible hearsay
and (2) the prosecutor’s references to Petitioner as a “big fish” during trial substantially prejudiced
Petitioner’s right to a fair trial. United States v. Bates, 665 F. App’x 810, 812 (11th Cir. 2016).
Although the Eleventh Circuit agreed with Petitioner as to these arguments, the Eleventh Circuit
affirmed the conviction because the errors were harmless in light of the “substantial untainted
evidence against [Petitioner].” Id.
Now, Petitioner moves to vacate his conviction and dismiss the indictment, or alternatively,
for a new trial or a reduction in his sentence. See Mot. at 13. Petitioner argues that (1) his retrial
violated the double-jeopardy clause because the first conviction was obtained through
Respondent’s misconduct; (2) Respondent breached its constitutional duty to ensure that Petitioner
received a fair trial by engaging in misconduct; (3) his trial counsel was ineffective; (4) the
conditions of his pretrial confinement violated his Sixth Amendment rights; and (5) the Court
improperly applied a two-level enhancement to his advisory sentencing guidelines. Mot. 14-33.
III.

DISCUSSION
As set forth in the R&R, Magistrate Judge Louis finds that Petitioner’s claims are without

merit. As an initial matter, Magistrate Judge Louis finds that Petitioner’s claims (1), (2), (4), and

3

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 4 of 8

(5) are procedurally barred because Petitioner failed to raise these claims on direct appeal of his
conviction and none of the relevant exceptions to this requirement apply. Id. at 14-16.
' Nonetheless, Magistrate Judge Louis also finds that all of Petitioner’s claims fail on the
merits. See R&R at 16-33. First, Magistrate Judge Louis finds that claim (1) lacks merit because
the double-jeopardy clause does not preclude retrying a defendant whose conviction was set aside
due to trial error as long as the conviction was not set aside due to the insufficiency of the evidence.
Id. at 16-18. Second, Magistrate Judge Louis finds that claim (2) is without merit because the
Eleventh Circuit already considered whether the admission of documents containing inadmissible
hearsay and reference to Petitioner as a “big fish” and the “worst offender” at trial constituted error
and held that any error was harmless. Id. at 18. Third, Magistrate Judge Louis finds that claim
(3), which raises various sub-claims related to the effectiveness of Petitioner’s second trial counsel,
fails because the sub-claims lack sufficient factual support and are contradicted by the record, his
counsel was not ineffective for failing to raise meritless arguments, and it was reasonable for
Petitioner’s second trial counsel to call the witnesses that he did at trial. Id. at 20-32. Fourth,
Magistrate Judge Louis finds that claim (4) fails because the law does not support that Petitioner’s
conditions of confinement constitute a Sixth Amendment violation. Id. at 18-19. Fifth, Magistrate
Judge Louis finds that claim (5) fails because it is contradicted by the record and the Court’s twolevel enhancement applied at sentencing was supported by the law and facts. Id. at 32-33.
Accordingly, Magistrate Judge Louis recommends that the Motion be denied. This Court agrees.
In the Objections,2 Petitioner argues that (1) his claims are not procedurally barred because
the operative facts were not available before his direct appeal; (2) Magistrate Judge Louis

2 Magistrate Judge Louis issued the R&R on January 2, 2020. See'generally R&R. Therefore,
the deadline to file objections to the R&R was January 16, 2020. See Fed. R. Civ. P. 72(b)(2)
(“Within 14 days after being served with a copy of the recommended disposition, a party may
4

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 5 of 8

incorrectly presumes that his second trial counsel “did what he should have done”; (3) the Court
ordered Petitioner to reduce the amount of detail in his Motion, which he complied with, and
therefore it “vaporizes due process” for the Court to now deny Petitioner’s Motion for not
containing enough detail; (4) Magistrate Judge Louis applies the incorrect standard to Petitioner’s
ineffective assistance of counsel claim; and (5) he is entitled to an evidentiary hearing before
proving his claims.3 See generally Objs.
First, Petitioner argues that Magistrate Judge Louis erred in finding that claims (1), (2), (4)
and (5) are procedurally barred because the relevant facts were not available before his direct
appeal. Id. at 8-9. Specifically, Petitioner argues that the facts related to Respondent concealing
that Christopher Davis testified before the Grand Jury, Respondent tampering with the laptop that
contained child pornography, and other people using the laptop at issue were not available before

serve and file specific written objections to the proposed findings and recommendations.”).
“Under the ‘prison mailbox rule,’ a pro se prisoner’s court filing is deemed file on the date it is
delivered to prison authorities for mailing.” Williams v. McNeil, 557 F.3d 1287, 1290 n.2 (11th
Cir. 2009). The Court assumes “[ajbsent evidence to the contrary . . . that a prisoner delivered a
filing to prison authorities on the date that he signed it.” Daniels v. United States, 809 F.3d 588,
589 (11th Cir. 2015). Petitioner signed his Objections on January 22, 2020 and therefore his
Objections are untimely. Nonetheless, in light of the likely delay in mailing the Objections and
Petitioner’s Motion for Extension of Time to File Objections (ECF No. 50), which the Court
denied, the Court considers Petitioner’s Objections.
3 Petitioner also argues in the Objections that (1) his trial violated the double-jeopardy clause; (2)
his counsel was ineffective for failing to retain the defense expert Petitioner utilized during his
first trial; (3) his counsel was ineffective for failing to raise the double jeopardy issue; (4) his
counsel was ineffective for failing to identify all other users of the laptop at issue and call them as
witnesses; and (5) the Court improperly applied a two-level enhancement to his advisory
sentencing guidelines because his offenses involved distribution. See Objs. 7-8,10-11. However,
these objections rehash the arguments Petitioner advanced in the Motion, which Magistrate Judge
Louis considered and rejected, and therefore they are not proper objections. See Marlite, Inc. v.
Eckenrod, No. 10-23641-CIV, 2012 WL 3614212, at *2 (S.D. Fla. Aug. 21, 2012) (noting that
“[i]t is improper for an objecting party to” file objections to a report and recommendation “which
are nothing more than a rehashing of the same arguments and positions taken in the original papers
submitted to the Magistrate Judge” because “parties are not to be afforded a second bite at the
apple when they file objections to [an] R & R”) (citation and internal quotation marks omitted).
5

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 6 of 8

his direct appeal. Id. “Generally speaking, an available challenge to a criminal conviction or
sentence must be advanced on direct appeal or else it will be considered procedurally barred in a
§ 2255 proceeding.” Mills v. United States, 36 F.3d 1052, 1055 (11th Cir. 1994) (citing Greene v.
United States, 880 F.2d 1299, 1305 (11th Cir. 1989), cert, denied, 494 U.S. 1018 (1990)). “A
ground of error is usually ‘available’ on direct appeal when its merits can be reviewed without
further factual development.” Id. (citation omitted). Here, at Petitioner’s second trial, Petitioner’s
trial counsel questioned Sergeant Valentine regarding Christopher Davis testifying before the
Grand Jury. See, e.g., (CR ECF No. 408) 235:16-18 (“Q. Well, you were aware that [Christopher
Davis] testified in front of the Grand Jury, weren’t you? A. Yes.”). Further, at Petitioner’s second
trial, Petitioner’s expert testified that Respondent’s expert mishandled the laptop, (CR ECF No.
404) 130:3-18, and several individuals testified that others had access to the laptop, id. 167:1925, 175:7-11, 192:6-13. Therefore, upon a de novo review, the Court finds that these facts were
known to Petitioner before his direct appeal, and thus claims (1), (2), (4), and (5) are procedurally
barred as set forth in the R&R.
Second, Petitioner argues that Magistrate Judge Louis improperly presumes that
Petitioner’s counsel’s performance was proper when analyzing Petitioner’s ineffective assistance
of counsel claims. Objs. at 9. Specifically, Petitioner argues that Chandler v. United States, 218
F.3d 1305,1314 n. 15 (11th Cir. 2000), which states that “where the record is incomplete or unclear
about [counsel's actions, [the court] will presume that he did what he should have done, and that
he exercised reasonable professional judgment,” only applies after a movant has been provided an
opportunity develop the factual record such as through discovery or an evidentiary hearing. Id.
(alterations in original). However, Chandler does not require that a Court hold an evidentiary
hearing for this presumption to apply. See, e.g, Martin v. United States, 703 F. App’x 866, 872-

6

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 7 of 8

73 (11th Cir. 2017) (applying the “strong presumption that counsel’s performance falls within the
‘wide range’ of reasonable professional competence” and affirming district court’s denial of
evidentiary hearing). Therefore, Magistrate Judge Louis properly applied the presumption that
Petitioner’s counsel performed reasonably.
Third, Petitioner argues that the Court ordered Petitioner to reduce the amount of detail in
his Motion but now Magistrate Judge Louis paradoxically recommends dismissing the Motion
because it contains insufficient detail. Objs. at 9-10. However, this argument is not “a proper,
specific objection” to a factual finding contained in the R&R, as it does not challenge Magistrate
Judge Louis’ finding that his Motion lacks sufficient supporting facts.

Rather, Petitioner

challenges the local rule imposing a page limit on his Motion as a due process violation, which is
not a proper objection to the R&R. See Macort, 208 F. App’x at 784.
Fourth, Petitioner argues that Magistrate Judge Louis applies an incorrect standard to
Petitioner’s ineffective assistance of counsel claim, arguing that prior to an evidentiary hearing,
Petitioner “need only allege—not prove—reasonably specific non-conclusory facts” supporting
the claim. Objs. at 6. However, irrespective of whether an evidentiary hearing is held, to succeed
on an ineffective assistance of counsel claim, “the defendant must show that counsel’s
performance was deficient” and that “the deficient performance prejudiced the defense.”
Strickland v. Washington, 466 U.S. 668, 687 (1984). Further, to show prejudice, “the defendant
must show that there is a reasonable probability that, but for counsel’s unprofessional errors, the
results of the proceeding would have been different.” Id. at 694. In the R&R, Magistrate Judge
Louis applies this standard and therefore Petitioner’s objection is meritless. See R&R at 20.
Fifth, Petitioner argues that he is entitled to an evidentiary hearing before proving his
claims. R&R at 6. However, the Court is not required to hold an evidentiary hearing on

7

Case 2:17-cv-14364-KMM Document 53 Entered on FLSD Docket 02/10/2020 Page 8 of 8

Petitioner’s claims before deciding the Motion because, as Magistrate Judge Louis finds in the
R&R, Petitioner fails to adequately support his claims. See Winthrop-Redin v. United States, 767
F.3d 1210, 1212, 1220 (affirming the “district court’s rejection of the [§ 2255] claims without an
evidentiary hearing” because the petitioner did not provide sufficient support for his claims); R&R
at 33. Thus, Petitioner’s objection is without merit.
IV.

CONCLUSION
UPON CONSIDERATION of the Motion, the R&R, the pertinent portions of the record,

and being otherwise fully advised in the premises, it is hereby ORDERED AND ADJUDGED that
Magistrate Judge Louis’ Report and Recommendation (ECF No. 47) is ADOPTED and
Petitioner’s Amended Motion to Vacate, Set Aside, or Correct Sentence Pursuant to 28 U.S.C. §
2255 (ECF No. 26) is DENIED. The Clerk of the Court is instructed to CLOSE this case. All
pending motions, if any, are DENIED AS MOOT. The Clerk of Court is hereby directed to send
the record, as supplemented by this Order, to the United States Court of Appeals for the Eleventh
Circuit.
DONE AND ORDERED in Chambers at Miami, Florida, this 10th day of February, 2020.

K. MICHAEL MOORE
UNITED STATES CHIEF DISTRICT JUDGE
c: All counsel of record

8

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 1 of 34

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-CV- 14364-MOORE/LOUIS
(2:12-CR-14054-KMM)
CAMERON DEAN BATES,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

REPORT AND RECOMMENDATION
This matter is before the Court on Petitioner Cameron Dean Bates’ Amended Motion to
Vacate, Set Aside, or Correct Sentence pursuant to 28 U.S.C. § 2255 (ECF No. 26). This matter is
referred to the undersigned for Report and Recommendation on any dispositive matter (ECF No.
3, 45). The government filed a response (ECF No. 28) to which Petitioner filed a reply (ECF No.
32). After careful review of the record and the arguments presented, the undersigned recommends
that the Motion be DENIED.

I.

BACKGROUND
a. The Indictments
Petitioner Bates was originally indicted in August 2012 in a two-count indictment that

charged him with receiving, between the dates of February 2011 and June 19, 2012, images
depicting child pornography, in violation of 18 U.S.C. §§ 2252(a)(2) and (b)(1) (Count. 1); and
with distributing images depicting child pornography on June 1, 2012, in violation of 18 U.S.C.
§§ 2252(a)(1) and (b)(1). In February 2013, a Grand Jury returned a superseding indictment
j

charging Bates on eighteen counts: eight counts with receiving child pornography; eight counts
1

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 2 of 34

with accessing and attempting to access files of child pornography; one count of distributing child
pornography; and one count of possessing a computer that contained child pornography. Petitioner
pleaded not guilty to the superseding indictment and began a jury trial on February 26, 2013
(“Bates /’). Bates was convicted on all counts on March 8, 2013.
Bates was sentenced on June 3, 2013, to a term of 240 months followed by 15 years of
supervised release (CRDE 309). Bates appealed the conviction and the Eleventh Circuit reversed,
finding error in the voir dire process, and further finding that the government had not met its burden
to show that the error was harmless. United States v. Bates, 590 F. App’x 882, 890 (11th Cir.
2014). Though the Court of Appeals reversed on this ground alone, the mandate noted that the
government’s last-minute change in strategy, including return of an 18-count superseding
indictment and disclosure of new expert report within weeks of trial, may not have afforded Bates
adequate time to prepare for trial. The Court of Appeals remanded with the expectation that Bates
be afforded adequate time to prepare and obtain expert assistance “[i]f Mr. Bates is retried on
remand.” Id.
On remand, after retrial had been scheduled, the government sought a Second Superseding
Indictment from the Grand Jury. The Grand Jury heard testimony from witnesses who testified
that they had used the computer alleged in the indictment; one such witness was C. Davis, a friend
of Bates’ son, who testified that he used the computer, as did his girlfriend.1 The Grand Jury
returned a true bill on all six counts: Counts 1-4 allege that Bates knowingly received images
depicting child pornography on specific dates named in each count; Count 5 alleged that Bates
distributed an image of child pornography on June 1, 2012; and Count 6 alleged that Bates

1 The Grand Jury proceedings are not in the record. The facts pertaining to the presentment to the Grand Jury are
summarized as alleged by Bates; the government’s Answer does not dispute his characterization, and defense
counsel’s line of questioning of the case agent at trial corroborates Bates’ account of the Grand Jury witness
presentment.

2

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 3 of 34

knowingly possessed a computer which contained child pornography.
b. The Trials
i. The First Trial (“Bates P’)
Petitioner Bates was represented in the first trial by privately-retained counsel, Anthony
Scremin. Scremin’s relationship with Bates preceded his representation in the criminal case; he
was a partner in the law firm that employed Bates as a paralegal for two years before Bates was
indicted. See ECF No. 10 at

4. Scremin filed a number of pretrial motions challenging the

government’s case against Bates, including moving to dismiss the criminal complaint (CRDE 22);
to dismiss the indictment, for prosecutorial misconduct and grand juror biases (CRDE 40, 49, 52);
for a bill of particulars (CRDE 38); and to suppress Bates’ statements to law enforcement (CRDE
43).
Despite retaining private counsel, Bates asserted indigency and filed a motion to proceed
in forma pauperis in October 2012 for the purpose of requesting payment for an expert (CRDE
62). The Court granted his motion to authorize payment of an expert retained to forensically
analyze the computer (CRDE 71) and ultimately approved payment to Petitioner’s expert, Carter
Conrad (CRDE 175).
The government’s investigation began in 2011, when Detective Robert Valentine of the St.
Lucie County Sheriffs Office identified several internet protocol (IP) addresses that were being
used to access child pornography. Petitioner Bates was associated with each of the IP addresses
associated with the child pornography downloads, at multiple physical addresses. At one point in
the investigation, upon receiving notification of a download of child pornography occurring at one
of these IP addresses, Det. Valentine traveled to the address connected to that IP address which he
had identified as Bates’ home. Before reaching the house, Det. Valentine saw Bates driving away
from the house.
3

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 4 of 34

Det. Valentine sought and obtained a warrant to search the Bates residence. Multiple
computers were found inside of the residence, and one was found outside in Bates’ locked car. The
only computer found to have child pornography on it was the one found in Bates’ car. Forensic
analysis showed that the temporal proximity of the download of certain images of child
pornography was close in time to other documents made and accessed by Bates, including
documents generated for his work as a paralegal and downloads of music. The computer also had
evidence of Bates’ personal and intimate life, including images of Bates nude, engaged in sexual
conduct with men, and evidence of a “Craigslist” 2 advertisement placed by Bates for sexually
oriented relationships with men. The evidence of Bates’ extra-marital and homosexual activities
was offered by the government, and admitted over objection, to prove that the computer was used
by Bates, as opposed to the other members of his household, as his extra-marital sexual conduct
had been kept secret from his family.
The theory of defense advanced that other people used the laptop and that the government
had failed to prove that Bates knowingly received or viewed the child pornography. Bates himself
testified over two days and specifically denied ever downloading or viewing any of the illic it
images (CRDE287 at 1523-24). Bates provided an alibi for himself for each of the dates on which
it was alleged in the indictment that illicit images had been downloaded. Additionally, he denied
that he was home on the date on which Det. Valentine testified that he observed Bates leaving the
house after receiving an alert that a download of child pornography had occurred at Bates’ address
(Id. at 1465, 1507).3 Bates called family members who testified that Bates allowed others to use
the computer, including his son’s friend C. Davis, who Bates argued to the jury was the likely

2 Craigslist is an American classified advertisements website with sections devoted to jobs, housing, dating, and other
topics.
3 The government moved for a two-level enhancement in Petitioner’s s entencing guideline range, pursuant to USSG
§ 3C1.1, for Bates ’ willfiil attempt to obstruct justice by offering false testimony. The Court granted the motion over
Petitioner’s objection.

4

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 5 of 34

culprit of the crime.
ii. Bates I Appe al
Bates appealed his conviction on several grounds: that the Court had abused its discretion
in denying the defense motion to continue; that the Court erred in allowing the government to
introduce evidence of Bates’ sexual preferences; and that the Court erred in jury selection by not
permitting voir dire into biases about sexual preference and homosexuality. The Eleventh Circuit
reversed, with a divided panel,4 on the sole issue of jury selection, agreeing that the Court should
have examined the jurors to determine the extent to which any had prejudices against
homosexuality that would cause them to not be impartial United States v. Bates, 590 F. App’x
882, 884 (11th Cir. 2014). The appellate court held that Bates’ defense—that he did not exercise
sole control over the computer—meant that the “facts about his sexual activities were inextricably
bound up with a central element of the charges against him.” Bates, 590 F. App’x at 887. The
appellate court reversed the conviction without reaching Bates’ other grounds for appeal though
specified that “on remand,” Bates be afforded sufficient time and resources to prepare a defense at
retriaL Id. at 891.
c. Retrial (“BatesII”)
i. Trial and Pretrial Motions
Following remand, Bates’ retained counsel moved to withdraw, representing that he had
been retained only for the first trial and had not been appropriately paid for that representation
(CRDE 334). The Court granted the motion and appointed Assistant Federal Public Defender
Fletcher Peacock. Upon appointment, counsel moved for entry of a bond for Bates, who had been
remanded following his conviction in the first trial (CRDE 347). The motion was denied by the

4 The dissenting judge would have affirmed on the basis that any errorin the voir dire process was harmless, as the
evidence ofguilt was “overwhelming.” Id. at 893.
5

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 6 of 34

Magistrate Judge, and counsel appealed the denial to the district court, arguing that Bates had no
incentive to flee but rather anticipated his retrial would result in acquittal, absent the “objectionable
material” evidence of his homosexuality being introduced to an impartial jury (CRDE 360 at TJ 4).
The appeal further argued that as a defendant in custody, he was at a clear disadvantage, with
access to counsel, discovery and his family all “extremely limited.” The appeal specifically averred
that “his mental and emotional well-being is affected by the harsh conditions of pretrial
confinement” and that with Bates detained, “the government has been put in a better position due
to its misconduct” (Id.). The appeal was denied, and Bates remained in custody through trial
(CRDE 362).
Before trial, Bates’ counsel filed two motions in limine to exclude and limit evidence from
being presented to the jury. The first motion in limine related to the images of child pornography
found on the computer named in the indictment; the motion offered to stipulate to the fact that the
images were found on the computer and that they depicted images of minors engaged in sexually
explicit conduct, arguing that the probative value of presenting the graphic images to the jury was
substantially outweighed by the unfair prejudice to Bates (CRDE 367). Counsel also moved to
exclude any evidence of Mr. Bates’ homosexuality or alternative sexual lifestyle, including
photographs and sexually-explicit Craigslist advertisements (CRDE 368). In the motion, counsel
acknowledged the government’s proffered need to admit the evidence to show that Bates would
not have let others use the laptop computer for risk that his family would discover his alternative
life style, which he had kept secret. Bates, through counsel, offered to stipulate that Bates placed
the advertisement on Craigslist, and that he did so at the times allegedly in close temporal
proximity to the downloads of child pornography; but argued that the sexually explicit content of
the advertisement was immaterial and should be excluded. The Court denied both motions in
limine-, the Order relating to Bates’ “Sexual Preferences and Lifestyle” noted that counsel would
6

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 7 of 34

be permitted to conduct voir dire on the question (CRDE 373).
Bates’ retrial began on June 8, 2015, following a continuance at defense counsel’s request
(ECF Nos. 358, 359).5 During jury selection, both defense counsel and prosecutor conducted voir
dire on the question of homosexuality, asking potential jurors to identify any biases they held that
may cause partiality in the case (CRDE 408 at 3-4; 36-37). Before opening statements began,
defense counsel renewed his objection to the introduction of the evidence challenged in his
motions in limine, seeking a standing objection to the evidence (id. at 73).
In opening statement, prosecutor Reggie Jones described the inception of the investigation
that led to Bates’ arrest and indictment:
In March 2011, Sergeant Valentine6 was conducting computer investigations to
individuals involved in sharing and receiving child pornography in and around the
St. Lucie County area and you'll hear testimony throughout this trial regarding the
various tools and databases, various tools and databases in [sic] law enforcement
used to conduct these computer investigations.
So in March 2011, Sergeant Valentine was conducting investigations into the big
fish, both individuals downloading and sharing the most child pornography in and
around St. Lucie County.
(id. at 74-74). Counsel for Bates objected “to the characterization of big fish” (id. at 75). The Court
agreed, stating “[t]his is not argument.” (Id.). Det. Valentine, the case agent, again was the
government’s first witness and repeated the characterization; asked to explain the origin of his
investigation into Bates, he testified “I identified an IP address that was what I considered a big
fish.” (Id. at 102). Counsel again objected, that objection was overruled by the Court. Det
Valentine thus continued:
I want the big person, the person that’s, that’s possessing or distributing the most
files. I’m not going to go after somebody that has a couple of files when I have
5 Petitionerprovideda hand-written waiverofhis speedy trial rights in support ofthe mo tionto continue, averring
that he had discussedtherights he was waiving with his counsel (ECF No. 358-1).
6 Between Bates I and Bates //Detective Valentine was promoted to Sergeant. Throughout the second trial he was
referred to as Sergeant Valentine, however forthe sake ofclarity the Court now refers to him as Detective Valentine,
his rankatthe time ofthe investigation.
7

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 8 of 34

somebody that’s trading fifty. It doesn't make sense. I want to go after the worst
user which I consider the big fish and like with this case, I know I’m going to try
to pick out three cases and try to work them all at the same time or around the same
time just in case one case is in a different jurisdiction, I can go and forward it, I
haven’t wasted time waiting on subpoenaes to come back from the internet service
provider, so I’ll only pick like three IP addresses out, the worst offenders, and start
working that case.
(Id. at 102-03). Det. Valentine then began discussing his investigation into Mr. Bates. He next
testified regarding the ICACCOPS database7 which revealed that certain IP addresses had
downloaded files appearing to be child pornography in Port St. Lucie, Florida {Id. at 105-107). He
was able to identify, through subpoenaes to AT&T, that the IP addresses belonged to a computer
belonging to Bates. He also testified that he was able to identify child pornography downloads
from, Samuel Gruen, who was identified as Petitioner’s lover and employer. Det. Valentine
testified that the downloads stopped in April of 2011 and he ceased his investigation. However, in
2012 the downloads began again from the same IP address and Det. Valentine testified that he
began a new investigation. During this investigation Det. Valentine testified that he received hits
of child pornography being downloaded at Petitioner’s new house, Petitioner’s paralegal business,
Mr. Gruen’s house, and the house of Mr. Gruen’s neighbor, Marianne Jankowski (Id. at 151-53).
Valentine testified that he was able to obtain through the peer-to-peer software a partial
direct download from Petitioner’s computer on June 1, 2012.8 He then confirmed that the video he
downloaded from Petitioner’s computer was in fact child pornography (CRDE 408 at 145-46).
Det. Valentine testified that on June 18, 2012 he received an email alert that a download of child
pornography was occurring at Petitioner’s house (Id. at 159:11-21). After receiving the email of

7 Det. Valentine testified that ICACCOPS was an online database that law enforcement used to track individuals
downloading child pornography (CRDE408 at 98).
8 Det. Valentine describedpeer-to-peersoftware duringhis direct examination stating:
“[P]eer-to-peer software is a file and I’m sharing it andyou want that file. It could be music, it could
be any type of file that you have on your computer and I can type in search terms or key words
looking forthat file and ifl have it and I’m sharing it, somebody elsecan grab thatfile fromme and
it’s a direct, it’s a direct connection ffommy, from my computer to that person’s computer and vice
versa.” (CRDE408 at 91:2-8).

8

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 9 of 34

the active download, Det. Valentine testified he got into his car and drove directly to the
Petitioner’s home. Before he could get to Petitioner’s home he witnessed Bates driving away from
his house (Id. at 160).
Det. Valentine applied for a search warrant to search Petitioner’s home. During the search
of Petitioner’s home several computers were seized and securely previewed for child pornography.
The only computer found containing child pornography was Petitioner’s laptop. During the search,
Det. Valentine testified that he interviewed Petitioner and that Petitioner admitted to having
downloaded child pornography, claimed he deleted the files, but admitted to using the peer-to-peer
software that Det. Valentine had been investigating (Id. at 191).
The prosecution also presented Sergeant John Parow, who was the computer examiner for
the sheriffs department (CRDE 409 at 36). He testified that he received training on forensic
computer examinations and that he was the officer who conducted the preview forensic computer
examination of Petitioner’s laptop during the search. He testified that he made a mirror image of
the computer as it was seized from the house but then turned the computer on after the seizure
which changed some of the internal BIOS stat on the computer, a decision he admitted was a
mistake (id. at 56). However, he testified that the mistake did not affect the original mirror image
(id.).
The prosecution called two witnesses associated with one of the IP addresses used to
download images of child pornography to establish that neither had been the person who caused
the downloads. First, Samuel Gruen testified that he met Petitioner through an online website and
they began a sexual relationship. The relationship turned into a business relationship and Bates
began doing work for Mr. Gruen. Mr. Gruen testified that Bates used the laptop at issue in his
home. He also testified that he had never met Bates’ wife or children and they had never been to
his home and that he had never been to Bates’ home. The prosecution similarly called Marianne
9

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 10 of 34

Jankowski, Mr. Gruen’s neighbor, who confirmed that before she was approached by law
enforcement in her home on June 29, 2012, her wireless network had not been protected by a
password.
The prosecution finally called Special Agent Brian Ray, a cybercrimes investigator for the
Department of Homeland Security. Special Agent Ray testified to the two reports he issued
following his forensic examination of Petitioner’s computer. He testified that he identified 110
child pornography files that he described in his report of Bates’ laptop (Id. at 170:12-13). Special
Agent Ray also testified that the settings of the peer-to-peer software that was installed on the hard
drive had been changed so that different files went to different folders and that the rate at which
someone could download from the subject computer had been slowed (Id. at 221). He also testified
that several files containing images of Bates in sexual positions were found in the same folder as
files containing child pornography.9 Additionally, Special Agent Ray testified to all of the personal
documents that Petitioner had on the computer including files and folders relating to his
employment with Mr. Gruen and his paralegal business. Special Agent Ray also testified that he
found emails between addresses known to be used by Bates sending messages of links to Craigslist
ads between the two email addresses, as well as records of ads that had been viewed on Craigslist,
and one ad that was placed by the computer at issue (Id. at 205). Special Agent Ray offered his
opinion that Bates was the exclusive user of the computer (Id. at 239). Special Agent Ray then
testified to the temporal proximity of child pornography relative to other files that he attributed to
Bates. Special Agent Ray concluded his direct examination by stating that based on the totality of
everything he saw, it was clear that Bates was downloading and viewing child pornography (CRDE
9 Defense counsel renewed his objection to the introduction ofthe craigslist images. The prosecution argued that the
pictures were highly relevant because they were posted on Craigslist at or about the same time a lot of activity was
seen on the computer involving child pornography which would establish that Petitioner was the one behind the
computer (iW. at 143:13-19). The Court overruled the objection, finding theevidence probative in light ofthe defense
theory and not unduly prejudicial in the context of the evidence overall (Id. at 146:3-11). The Court gave a limiting
instruction before admitting the contested images (Id. at 206-207).
10

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 11 of 34

404 at 44:7-9).
After the government rested, the defense called its expert, Richard Connor. Mr. Connor is
both an attorney and a computer forensic investigator. He testified that the review of the mirrored
image did not conclusively demonstrate who had downloaded the child pornography. He also
testified to finding recent sites visited including Zales.com and Disney.com.
The defense called multiple witnesses to testify about the common usage of the named
computer by family members and others. Rosemary and Kelly Russell are the sister-in-law and
brother-in-law of Petitioner, respectively. They both testified they saw numerous individuals use
the laptop at issue, and they themselves had used the laptop at issue. Mrs. Russell additionally
admitted that she had looked up Disney passes on the computer (CRDE 404 at 168:12-15).
The final witness called by the defense was Barbara McCourtney Bates, Petitioner’s wife.
Mrs. Bates began her testimony by detailing her relationship with her husband. She testified that
Petitioner was a very busy person and worked multiple jobs during the times in question. She
testified that she knew he worked for Mr. Gruen but did not know about his affair until she testified
at the first trial. She also testified that she purchased the computer at issue with her husband and
that she had used it previously (Id. at 189:16-19). Additionally, she testified that others beyond her
family members had used the computer, including her son’s friend, C. Davis (Id. at 190:13-20).
Mrs. Bates also provided an alibi for Petitioner for certain dates on which child pornography was
alleged to have been downloaded, indicating that her husband was with her on those days for most
of the day. She provided receipts of the locations which she claimed to have visited to corroborate
the alibi.
The jury returned a verdict of guilty as to all counts.
d. Sentencing
Bates was sentenced on September 15, 2015 (CRDE 394, 395). Prior to sentencing, a
11

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 12 of 34

Presentence Investigation Report (“PSI”) was prepared by the U.S. Probation Office (CRDE 389),
which calculated a guideline range of imprisonment of 210 to 262 months. Beginning with a base
offense level of 22 pursuant to USSG § 2G2.2 for receiving, distributing or possessing child
pornography, the PSI recommended a two-level enhancement because the offense involved minors
under the age of 12; a two-level enhancement because the offense involved distribution; a fourlevel enhancement because the offense involved images depicting violence; a two-level
enhancement because the offense involved use of a computer for the transmission or receipt of the
material; and a five-level enhancement because the offense involved more than 600 images of
child pornography. A total adjusted offense level of 37 resulted, with a criminal history category
I, and a corresponding guideline range of 210 to 262 months.
Defense counsel filed a written objection to the application of the two-level enhancement
for the distribution (CRDE 390). Section 2G2.2(b)(3) of the Sentencing Guidelines (2012)
provides for an enhancement for an offense involving distribution of child pornography, up to
seven levels if the distribution was to a minor and intended to entice that minor to engage in
prohibited sexual conduct, and as low as two levels, if the distribution involved none of the other
aggravating characteristics enumerated in the other subsections. USSG § 2G2.2(b)(3)(F). The
guideline requires application of the greatest of the applicable enhancements for distribution.
At the sentencing hearing, defense counsel argued against application of the enhancement,
arguing the absence of any evidence that Petitioner had actively or intentionally distributed
material to other persons (CRDE 403 at 3-4). Addendum to the PSI noted counsel’s objection and
observed that the offense had involved peer-to-peer software, which allowed others to download
from his computer, as Det. Valentine had testified he had done on June 1, 2012 (CRDE 392). The
Court adopted the reasoning of the probation officer and denied the objection (CRDE 403 at 5).
The Court also denied the motion for variance (CRDE 393) and imposed a sentence in the middle
12

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 13 of 34

of the calculated guideline range: 240 months as to counts 1 through 6, to run concurrently to each
other.
e. The Dire ct Appe al
Bates appealed his conviction to the Eleventh Circuit, raising the following challenges: the
Court erred in admitting certain documents containing inadmissible hearsay; and the prosecutor’s
improper comments, referring to Bates as a “big fish”, substantially prejudiced his right to a fair
trial. The Eleventh Circuit agreed that the challenged documents were admitted in error and that
the government’s remarks were improper but affirmed the conviction because the errors were
harmless in light of the “substantial untainted evidence against him.” United States v. Bates, 665
F. App’x 810, 812 (11th Cir.-2016).10
£ This 2255 Motion
Petitioner initiated the present action on October 18, 2017, within one year of the Eleventh
Circuit’s affirmance.11 His initial Motion to Vacate exceeded 200 pages and raised 28 claims for
relief. The Court required him to amend his petition and ordered that any amended petition must
adhere to the Local Rules and Rules Governing Section 2255 Proceedings (ECF No. 4). The Court
cautioned Petitioner that it would only consider claims raised in his amended motion, which would
serve as the sole operative pleading. The Court additionally warned Petitioner that failure to allege
sufficient factual support would subject his claims to dismissal, and that no further amendments
would be permitted (id. at 6). Petitioner ultimately filed his Amended Motion on January 18, 2018
(ECF No. 26), to which the government responded on March 9, 2018 (ECF No. 28). Petitioner
filed a Reply thereto (ECF No. 32), and the Motion is now fully ripe.
Bates’ Petition moves to vacate his conviction and dismiss the indictment. Alternatively,

10 The mandate was entered on January 5,2017.
11 The government acknowledges in its AnswerthatthePetition is timely.
13

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 14 of 34

Bates seeks a new trial, or reduction in his sentence. Bates raises five claims in his Petition. First,
he contends that his retrial violated the double-jeopardy clause because the first conviction was
obtained through government misconduct. Second, he claims the government breached its
Constitutional duty to a fair trial by engaging in misconduct in the retrial. Third, he claims that his
trial counsel was ineffective for four reasons. Fourth, Bates raises a Sixth Amendment challenge
to the condition of his pretrial confinement, which he alleges prevented him from meaningfully
conferring with his appointed counsel. Finally, Bates raises a challenge to the Court’s application
of a two-level enhancement to his advisory sentencing guidelines, which he contends counsel was
ineffective for failing to argue at sentencing.
II.

ANALYSIS
Pursuant to 28 U.S.C. § 2255, a prisoner in federal custody may move the court which

imposed sentence to vacate, set aside or correct the sentence if it was imposed in violation of
federal constitutional or statutory law, was imposed without proper jurisdiction, is in excess of the
maximum authorized by law, or is otherwise subject to collateral attack. 28 U.S.C. § 2255. If a
court finds a claim under § 2255 to be valid, the court “shall vacate and set the judgment aside and
shall discharge the prisoner or resentence him or grant a new trial or correct the sentence as may
appear appropriate.” Id. To obtain this relief on collateral review, however, a habeas petitioner
must “clear a significantly higher hurdle than would exist on direct appeal.” United States v. Frady,
456 U.S. 152, 166(1982) (rejecting the plain error standard as not sufficiently deferential to a final
judgment).
The government argues that Bates’ claims for relief are procedurally barred from
consideration in this § 2255 proceeding. A motion to vacate under § 2255 is not a substitute for a
direct appeal, and issues which could have been raised on direct appeal are generally not actionable
in a § 2255 motion and will be considered procedurally barred. Massaro v. United States, 538 U.S.
14

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 15 of 34

500(2003); Lynnv. United States, 365 F.3d 1225, 1234—35 (11th Cir. 2004). Accordingly, anonconstitutional error that may justify reversal on direct appeal does not generally support a collateral
attack on a final judgment, unless the error (1) could not have been raised on direct appeal and (2)
would, if condoned, result in a complete miscarriage ofjustice. Lynn, 365 F.3d at 1232-33 (quoting
Stone v. Powell, 428 U.S. 465, 477 n.10 (1976)).
A defendant generally must advance an available challenge to a criminal conviction or
sentence on direct appeal or else the defendant is barred from presenting that claim in a § 2255
proceeding. In his Amended Petition, Bates acknowledges that none of the grounds raised were
previously raised in any court—at trial or on appeal—explaining only that “[t]hey were overlooked
by counsel or they were not ripe for review” (ECF No. 26 at 11). There is no dispute by the
government that Bates’ claims of counsel’s deficient performance are not barred, as claims of
ineffective assistance are generally not considered ripe until collateral attack. See Massaro, 538
U.S. at 504. For all other claims raised in this Petition, Bates’ failure to raise them before this
collateral attackprocedurally bar this Court from considering them now, unless Bates can establish
one of the two exceptions to the procedural default rule. Lynn, 365 F.3d at 1232-33.
Under the first exception, a defendant must show cause for not raising the claim of error
on direct appeal and actual prejudice from the alleged error. Frady, 456 U.S. 152, 168, (1982).
Under the second exception, a court may allow a defendant to proceed with a § 2255 motion despite
his failure to show cause for procedural default if “a constitutional violation has probably resulted
in the conviction of one who is actually innocent.” Lynn, 365 F.3d at 1234. The second narrow
exception is inapplicable here because there is no evidence establishing that Bates is actually
innocent. Therefore, unless Bates has shown cause and prejudice for not raising his § 2255 claims
on direct appeal, the rule bars him from raising them herein.
To show cause, a defendant must show “some external impediment preventing counsel
15

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 16 of 34

from constructing or raising the claim.” Lynn, 365 F.3d at 1235 (citing Murray v. Carrier, 477
U.S. 478, 488 (1986)). Bates has not shown that the facts on which he now relies were unavailable
on direct appeal, but rather generally avers only that the facts were not made part of the record.
This is insufficient to overcome the procedural bar.
Accordingly, Petitioner’s first, second, fourth and fifth claims—all but his claims for
ineffective assistance of counsel—are procedurally barred from review on this collateral attack.
Notwithstanding, the undersigned has considered the merits of Petitioner’s claims in the sections
that follow and offer alternatively recommendation to deny the Petition on its merits.
a. First Claim of Government Misconduct: Double Jeopardy
Petitioner alleges that in the first trial, the government engaged in intentional misconduct,
designed to “ensure a mistrial,” for the purpose of disadvantaging the defense for a second trial.
Petitioner alleges the government’s misconduct was intended to deplete him of resources used in
the first trial; obtain a preview of the defense evidence; and conduct a “dry run” of the
government’s evidence; all for the purpose of strategic advantage on retrial Consequently, Bates
argues, his retrial violated the Double Jeopardy Clause.
Bates did not raise this claim on either appeal nor did he raise the double jeopardy
challenge before his retriaL No cause is offered for this failure to raise the claim previously in any
federal court, and the claim that his retrial violated the Double Jeopardy Clause is procedurally
barred.
Nor does the record show any Constitutional error occurred. The Double Jeopardy Clause
does not preclude retrying a defendant whose conviction is set aside because of a trial error. Burks
v. United States 431 U.S. 1, 14 (1978). Only if the conviction is set aside because of the
insufficiency of the evidence will the Double Jeopardy Clause limit the government’s ability to
retry a defendant. See, e.g., United States v. DiFrancesco, 449 U.S. 117, 130-131(1980). In his
16

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 17 of 34

Reply, Petitioner argues that the bad faith conduct by the prosecution barred retrial, citing Oregon
v. Kennedy and United States v. Dinitz. 456 U.S. 667 (1982); 424 U.S. 600 (1976). In Kennedy,
the Supreme Court clarified prior precedent, including Dinitz, holding that “[o]nly where the
governmental conduct in question is intended to ‘goad’ the defendant into moving for a mistrial
may a defendant raise the bar of double jeopardy to a second trial after having succeeded in
aborting the first on his own motion.” Kennedy, 456 U.S. at 676. Kennedy is important here for
two reasons. First, Kennedy expressly declined to expand the narrow exception to the rule that a
defendant may be retried if he prevails on a motion for mistrial, observing the above-cited principle
that if he does not succeed on the motion for mistrial but did successfully overturn his conviction
on appeal, the government could of course try him a second time. Kennedy, 456 U.S. at 677, n.6.
Second, the standard set by Kennedy requires a showing of intent by the judge or prdsecutor to
provoke the defendant into moving for a mistrial. Id. at 679.
Kennedy lends no support to Petitioner’s Double Jeopardy claims. Petitioner never moved
for a mistrial in the first trial, and his conviction was overturned not because of the insufficiency
of the evidence but rather upon finding an error in the trial process. See Bates, 590 F. App’x at
884. The Eleventh Circuit specifically contemplated that the government might retry the case and
gave specific instructions in its mandate to the Court. Id. at 890 (“[0]n remand the District Court
must assure itself that Mr. Bates has adequate resources to permit his expert to review the evidence,
and enough time to pursue the evidence necessary to aid in his defense.”).
Nor, finally, does the Amended Motion or the record support Petitioner’s conclusory
allegations that the government harbored an intent to goad him into a mistrial for strategic
advantage. Putting aside the inflammatory language Bates uses to describe the “shocking manner
of [the government’s] improper strategy,” or the prejudice he contends he suffered by attrition of
resources available to him on retrial, his first claim does not allege any facts on which a cognizable
17

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 18 of 34

claim could be based.
b. Second Claim of Government Misconduct: The Retrial
In his second claim, Petitioner alleges government misconduct in the second trial,
beginning with those errors raised on appeal that the government advanced documents containing
inadmissible hearsay, and the prosecution made improper remarks by calling him a “big fish” and
the “worst offender.” These errors were raised on appeal, and the Court of Appeals has already
considered both and determined that the errors, considered together or alone, were harmless.
“[W]here there has been no intervening change in controlling law, a claim or issue that was decided
against a defendant on direct appeal may not be the basis for relief in a § 2255 proceeding.” Rozier
v. United States, 701 F.3d 681, 684 (11th Cir. 2012).
Bates raises three additional alleged acts of misconduct: that the government concealed
evidence that its case agent was infirm; the government concealed that a witness (C. Davis) had
testified to the grand jury about his personal use of the computer named in indictment, as well as
others’ use of it; and that the sheriff s office forensic investigator tampered with the computer,
rendering it unreliable and inadmissible (ECF No. ,26 at 7-8). None of these issues were raised on
appeal and Petitioner has not shown cause for not raising them; accordingly, he is procedurally
barred from doing so for the first time in this collateral attack.
c. Fourth Claim: Government Precluded Bates fromHaving Effective Assistance
of Counsel
On Reply, Bates raises a litany of complaints against the “government” for conditions of
transport and confinement. Bates contends that the government “ensured” Bates’ return to trial
“truncated” his chances of producing exculpatory evidence, “by stalling” him along the way in
“slave-galley conditions,” the government effectively prevented counsel from accessing primary
source of facts-Bates himself. Bates alleges that the conditions of confinement depleted his health
rendering him an “ineffective assistant” for his counsel. He also alleges that he was placed in
18

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 19 of 34

communication-restricted confinement and avers he was unable, as a result, to explain to his
appointed counsel the value of certain evidence, such as a charge log used to show account activity.
Bates’ failure to raise these issues previously renders them procedurally barred unless he can
demonstrate both cause for counsel’s failure to raise it and prejudice.
Though Bates offers that “none of these events appear in the trial record,” the record shows
otherwise. As noted above, counsel’s appeal of the Magistrate Judge’s denial of a bond recites the
complaints Bates now raises in this collateral attack—that he was disadvantaged by being held in
custody, with limited access to counsel and his family—though none of Bates’ allegations of
intentional misconduct was then raised. Nor did Bates or counsel raise to the trial or appellate court
that the limited access had interfered with the counsel’s ability to prepare for trial Bates cannot
raise this error for the first time on collateral attack, thus the Court is barred from considering it
anew.
Nor does the law support Petitioner’s claim of misconduct in this respect. Petitioner claims
that he was subjected to “diesel therapy,” that is, that he was purposefully moved around in a
circuitous route in order to delay his ability to communicate with his attorney and supply facts to
defend himself. He cites to United States v. Durfey in support. No. 5:06-CR-193 MCR, 2010 WL
4342107, at *11 (N.D. Fla. Sept. 20, 2010), report and recommendation adopted, No. 5:06CR193
MCR, 2010 WL 4282083 (N.D. Fla. Oct. 21, 2010). Notably, the court in Durfey rejected a
collateral attack that raised, as a basis for ineffective assistance, counsel’s failure to protect the
defendant from the alleged “diesel therapy” like that about which Petitioner now complains. It
lends no support to Petitioner’s claims in this respect. Nor does Chavez v. Cockrell, to which
Petitioner cites to support his contention that his unkept appearance and discourteous treatment by
the Marshal’s deputies denied him the presumption of innocence before the jury. 310 F.3d 805
(5th Cir. 2002). Notably, the court rejected this claim in Chavez, denying the certificate of
19

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 20 of 34

appealability to a defendant who was stunned accidentally by court security officers during his
murder trial.
d. Ineffective assistance
Petitioner raises a series of bases that predicate his claim that he was denied the effective
assistance of counsel. Petitioner complains that counsel should have taken more time, requested a
larger budget, and drawn more from the resources of his first trial; his first attorney, Anthony
Scremin, and the expert retained by Mr. Scremin. The petition delineates four sub-claims of
ineffective assistance: (1) that Mr. Peacock went to trial under-prepared and failed to object to the
government’s continued misbehavior; (2) that Mr. Peacock failed to retain the defense expert
utilized during Bates I by the defense and that this failure is objectively deficient; (3) that Mr.
Peacock overlooked “the double jeopardy issue;” and (4) that Mr. Peacock should have identified
all other users of the laptop computer at issue and called them as witnesses.
The Sixth Amendment affords a criminal defendant the right to “the Assistance of Counsel
for his Defense.” U.S. Const, amend. VI. To prevail on a habeas corpus petition based on a claim
of ineffective assistance of counsel, a defendant must show both that trial counsel’s performance
was deficient and that the deficient performance prejudiced the defendant so as to deprive him of
a fair trial. Stricklandv. Washington, 466 U.S. 669 (1984). Courts review counsel’s performance
in a highly deferential manner under a “strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance.” Id. at 689. For the second prong “Strickland
places the burden on the defendant to show a ‘reasonable probability’ that the result would have
been different.” Wongv. Belmontes, 558 U.S. 15, 27 (2009) (quoting Strickland, 466 U.S. at 694).
A court deciding an actual ineffectiveness claim must judge the reasonableness of
counsel’s challenged conduct on the facts of the particular case, viewed as of the time of counsel’s
conduct. Id. at 690. A convicted defendant making such a claim must identify the acts or omissions
20

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 21 of 34

of counsel that are alleged not to have been the result of reasonable professional judgment. Id. To
determine whether counsel’s performance was deficient, the court must, with much deference,
consider whether counsel’s assistance was reasonable considering all the circumstances.
Srtickland, 466 U.S. at 688. Moreover, the court must avoid the “distorting effects of hindsight”
and assess the reasonableness of counsel’s performance from his perspective at the time of the
challenged conduct. Id. at 689. In this regard, “strategic choices” made by counsel afterthoroughly
investigating the relevant law and facts are “virtually unchallengeable.” Id. at 690. “Where the
record is incomplete or unclear about counsel’s actions,” the court “will presume that he did what
he should have done, and that he exercised reasonable professional judgment.” Chandler v. United
States, 218 F.3dat 1314 n.15 (internal quotation marks and alteration omitted).
Regarding the prejudice requirement, the Supreme Court observed that an unreasonable
error by counsel does not justify setting aside a criminal judgment when the “error had no effect
on the judgment.” Strickland, 466 U.S. at 691. Thus, absent special circumstances, the defendant
must affirmatively prove prejudice resulting from his counsel’s deficient performance. Id. 692-93.
The defendant must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. Id. at 694. “A
reasonable probability is a probability sufficient to undermine confidence in the outcome.” Id.
Establishing Strickland’s deficient-performance and prejudice elements “is not easy: ‘the
cases in which habeas petitioners can properly prevail on the ground of ineffective assistance of
counsel are few and far between.’” Van Poyck v. Fla. Dep’t of Corr., 290 F.3d 1318, 1322 (11th
Cir. 2002) (per curiam) (quoting Waters v. Thomas, 46 F.3d 1506, 1511 (11th Cir. 1995) (en
banc)). If a petitioner makes an insufficient showing on either element, the court need not address
the other element. See Strickland, 466 U.S. at 697. With these standards in mind, the Court turns
to the merits of Bate’s four ineffective-assistance claims.
21

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 22 of 34

1. Counsel was UnderPrepared and Failedto Object
Petitioner’s first sub-claim is that Counsel failed to object to the “government’s continued
misbehavior” (ECF No. 26 at 10). The misconduct about which he complains is the government’s
introduction of evidence of his “homosexual lifestyle as a precursor of perversion” (Id.). Petitioner
also raises in his first sub-claim that his counsel “bemoaned being overworked generally,” lacked
time and resources to obtain quality resources or interview witnesses, and consequently fell below
the standards of professional conduct and denied him a fair trial (id.). Respondent averred in its
response that counsel did in fact object to the introduction of the Petitioner’s homosexual lifestyle
and that even if Mr. Peacock was overworked, Petitioner fails to allege any specific errors by Mr.
Peacock that prejudiced him under the Strickland standard.
Petitioner’s claim that Mr. Peacock was underprepared alleges in conchisory fashion that
his trial counsel was ineffective, focusing his argument on proving why counsel was ineffective,
but not how. For example, Petitioner alleges that his appointed counsel lacked the time or resources
to identify and interview witnesses, including alibi witnesses without identifying those witnesses
counsel should have interviewed (ECF No. 32 at 3).12 Bates must allege facts that, if true, would
substantiate Bates’ assertions that his counsel’s representation failed the Strickland standard, by
specifically identifying the allegedly ineffective actions and corresponding prejudice flowing
therefrom. By simply identifying the possible reasons for counsel’s alleged underperformance
(that he was too busy), Bates cannot fill the gap between alleged misconduct and any prejudiced
suffered as a result.
To the extent this claim faults counsel for failing to object to the government’s introduction
of evidence of Petitioner’s homosexual lifestyle, the record conclusively shows otherwise. Before

12 Petitioner names two alibi witnesses in his Petition but explains they had died before the second trial(ECF No. 26
at 5). Counsel cannotbe ineffective forfailing to interview dead witnesses.

22

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 23 of 34

trial, Mr. Peacock moved in limine to preclude the government from introducing evidence of
Bates’ sexual preferences and homosexuality, including evidence of a Craigslist advertisement
placed in close temporal proximity to the illegal download activity. In support of his motion in
limine, Petitioner offered to stipulate to the fact that he placed the advertisement, without revealing
the content of the advertisement, arguing that the need to reveal the content of the advertisement
was heavily outweighed by the potential prejudice to Petitioner (CRDE 368). Continuing
throughout trial, Counsel objected to the introduction of any such evidence, despite the Court
recognizing a standing objection (CRDE 408 at 73). Further, counsel attempted to keep out photos
of the Defendant engaged in homosexual acts in a sidebar with the Court at trial (CRDE 409 at
142-44). Having failed to allege facts that support a finding of deficiency in counsel’s performance
in this respect, the Court need not consider prejudice. Strickland, 466 U.S. at 697.
Even still, the admission of the evidence was not so prejudicial such that counsel’s failure
to exclude it was deficient. Pursuant to Federal Rule of Evidence 403 the Court may exclude
relevant evidence if its probative value is substantially outweighed by its prejudicial effect. At
trial, the prosecution argued that the admission of the photos of Petitioner were necessary to show
his use of the computer, but more importantly, his exclusive use of the computer. The prosecution
averred at trial that because Petitioner’s homosexuality was kept secret from his friends and family,
he would not have allowed unfettered access to a computer which would have revealed his most
closely held secrets (CRDE 404 at 267-68). During the trial, the Court found that the prejudicial
effect was not so substantial as to outweigh the probative value. Because the evidence was not so
prejudicial as to outweigh the probative value, Mr. Peacock’s failure to have it excluded was not
deficient. See Lamontagne v. Sec’y, Dep’t of Corr., 433 F. App’x 746, 749 (11th Cir. 2011)
(holding that a defendant’s faulty assumption that properly excluded evidence should not have
been excluded does not give rise to deficient performance under Strickland).
23

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 24 of 34

In his Reply, Petitioner claims that Mr. Peacock was deficient because he failed to speak
with and use the assistance of Anthony Scremin, Petitioner’s first trial counsel. 13 In support of his
claim he presented the affidavit of Mr. Scremin (ECF No. 10). To the extent that Petitioner avers
that Mr. Peacock should have called Mr. Scremin as a witness, which witness to call is purely a
strategic choice. Waters v. Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995). Even so, Petitioner fails
to explain what prejudice, if any, he suffered from Mr. Peacock’s failure to consult Mr. Scremin
as Petitioner has not stated what Mr. Scremin would have testified to that was not otherwise
presented to the jury. A thorough review of the record demonstrates that Mr. Peacock understood
the underlying facts of not only the case which he tried, but the facts and issues of the first case
and first appeal. There has been no showing by Petitioner that Mr. Scremin possessed knowledge
or evidence which was not already bore on the record in the subsequent trial As such, I find that
Mr. Peacock’s failure to consult with Mr. Scremin did not reasonably affect the judgment in the
case and thus there was no prejudice in his failure to call Mr. Scremin. See Strickland, 466 U.S. at
691.
2. Counsel Failed to Retain the Same Computer Expert
Petitioner’s second sub-claim is that counsel failed to retain the same expert, Salvatore
Rastrelli, from his first trial. Bates claims that he was prejudiced by the fact that he had to go to
trial with an expert, Richard Connor, who he claims was a less qualified expert. Additionally,
13 It is unclear whether Petitioner is claiming that Mr. Peacockshould have usedMr. Scremin as a second attorney or
used Mr. Scremin as a witness. ConstruingPetitioner’s claim broadly, I address both possible arguments. WinthropRedinv. UnitedStates, 767 F.3d 1210, 1215 (11th Cir. 2014) (holding that prose filings must be liberally construed,
including applications forhabeas reliefpursuantto 28U.S.C. § 2255).
In his affidavit, Mr. Scremin states that Mr. Scremin notified Mr. Peacockthathe would “cooperate in eveiy
way” and “in fact would even be a witness in the case.” (ECF No. 10 at 9, | 29). Petitioner avers that Mr. Scremin
shouldhavebeen“used as much as possible” (ECFNo. 26 at 9). To the extentthatPetitioner believes that Mr. Scremin
should have been engaged as co-counsel on the case, the Florida Bar Rules would prohibit it. Florida Bar Rule 4-3.7
states:“A lawyershallnotactas advocate at a trial in which the lawyer is likely to be a necessary witness on behalf
of the client unless...” and then lists several exceptions not applicable to the present case. FL ST BAR Rule 4-3.7.
Mr. Scremin’s affidavit states that he believes thathe would have been available to testify as a witness in the case,
thus barringhimfrom serving himas co-counselundertheFloridaBar Rules.

24

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 25 of 34

Petitioner claims that Mr. Peacock was deficient by not having the expert explain that there were
other personal files stored in the same location as the child pornography files.
Initially it should be noted that Mr. Rastrelli offered no substantive testimony during the
first trial, nor was he disclosed as an expert by Mr. Scremin in Bates I. Mr. Rastrelli was a former
classmate of Petitioner (CRDE 286 at 49:11-12). Upon hearing about the case and following it in
the news, Mr. Rastrelli reached out to Mr. Scremin and volunteered to testify as to whether the
procedures of the Port St. Lucie Sherriff s Department had been followed correctly, despite never
working for Port St. Lucie Sherriff s Department, or testifying to any familiarity with thenprocedures (Id. at 49:18-21). In the first trial, Mr. Scremin called Mr. Rastrelli to the stand, had
him introduce himself and his background and was immediately objected to by the prosecution.
The prosecution argued that Mr. Rastrelli had never provided a report and had never been disclos e d
as an expert (Id. at 48:4-8). The Court sustained the objection and excluded the witness because
Mr. Rastrelli had not been disclosed as an expert and any testimony he would provide as to
procedures of other police departments would have been impeachment through extrinsic evidence
(Id. at 51:14-16).
Petitioner nonetheless argues that counsel was deficient for retaining Mr. Connor because
Mr. Rastrelli would have offered more knowledge of Bates’ personal history and behavioral
profile. He further argues that Mr. Connor did not present a “complete forensic analysis” (ECF
No. 26).
What Petitioner fails to appreciate is that under Strickland, the standard is not what the best
course of action, or which expert is the best to call, rather, the question is whether a reasonable
attorney would have taken the course of action which Mr. Peacock took. As stated in Chandler v.
United States:
If a defense lawyer pursued course A, it is immaterial that some other reasonable
courses of defense (that the lawyer did not think of at all) existed and that the
25

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 26 of 34

lawyer's pursuit of course A was not a deliberate choice between course A, course
B, and so on. The lawyer's strategy was course A.... [0]ur inquiry is limited to
whether this strategy, that is, course A, might have been a reasonable one.
218 F.3d at 1315 n.16 (11th Cir. 2000); see also Gordonv. United States, 518 F.3d 1291, 1302
(11th Cir. 2008) (citing Chandler, 218 F.3d at 1315 n.16) (finding an evidentiary hearing
' unnecessary when a court can conceive of reasonable motivations for counsel’s actions in denying
a claim of ineffective assistance of counsel). Therefore, the inquiry is not whether one expert was
better than the other, but rather, whether counsel’s selection and retention of Mr. Connor was
reasonable.
In Bates II, Mr. Peacock secured the services of Mr. Connor as both a consulting and
testifying expert. Mr. Connor is a lawyer who graduated from both Princeton University and
Stetson University College of Law (CRDE 378 at 118:22-24). He is certified to conduct forensic
analysis by numerous organizations and has testified in over 90 cases as an expert witness at both
the state and federal levels (Id. at 120:3).
Mr. Connor performed a forensic examination of the mirror image of the laptop at issue
(Id. at 120:20-21). Mr. Connor testified that he began his examination of the laptop by reviewing
the government’s disclosed discovery materials to get a background of the case and to understand
where the files in question were located (Id. at 121:4-13). Mr. Connor testified that he found
evidence on the computer that could be attributed to someone other than Petitioner (Id. at 123:1115). He indicated further that he could not say definitively who did or did not use the computer
(Id. at 123:18-20). He also testified that when Detective Parow turned on the computer that it
“changed in many ways” (Id. at 129:1-2). Beyond that, Mr. Connor testified that the computer
would not hibernate when closed, and would begin automatically downloading any pending files
in the Frostwire software when it was reconnected to wireless internet (Id. at 130-32). Although
Petitioner states that Mr. Rastrelli would have been a better expert because of his personal
26

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 27 of 34
(
knowledge of Petitioner, the question is not whether one expert is better than the other. Considering
Mr. Connor’s qualifications, experience testifying, and the testimony he gave at the trial, it was
reasonable for Mr. Peacock to engage and call Mr. Connor as an expert witness in this case.
Petitioner cites to Hinton v. Alabama and Lawhorn v. Allen in his Reply for the proposition
that Mr. Peacock’s failure to speak with Mr. Rastrelli was deficient performance. 571 U.S. 263
(2014); 519 F.3d 1272 (11th Cir. 2008). However, in Hinton, the Supreme Court found that it was
unreasonable for counsel to fail to seek additional funds to hire an expert where that belief was not
based on any strategic choice but a mistaken belief that available funding was capped at $1,000.
Id. at 273. As to Lawhorn, the court there found that counsel’s decision to waive closing argument
during a death penalty phase of sentencing was deficient when it was based not on strategic choice
but on misunderstanding of Alabama criminal procedure law. Lawhorn, 519 F.3d at 1295. Both
decisions turned on the fact that counsel had an unreasonable mistaken belief as to the law. No
such mistaken belief about the law is here alleged by Petitioner.
Petitioner also claims that Mr. Peacock was deficient in not having Mr. Connor explain
that personal files belonging to individuals other than Petitioner were stored in the same space that
Petitioner stored his personal files and where the child pornography files were stored. While Mr.
Connor did not use those specific words, he did testify to the fact that the forensics demonstrated
that there was use inconsistent with that of Petitioner’s on the laptop at issue (CRDE 404 at 123).
Additionally, Mr. Connor testified that individuals using other computers could have accessed the
folder in which the child pornography was stored from computers other than the laptop at issue,
demonstrating the fact that the folder at issue was not only capable of being accessed by Petitioner
{Id. at 137-38). Accordingly, Bates has shown no prejudice from Mr. Peacock’s alleged failure to
ask the specific question he now suggests Mr. Peacock should have asked.

27

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 28 of 34

3. Counsel Failed to Raise the Double Jeopardy Issue
Petitioner’s third sub-claim is that Mr. Peacock was deficient because he “overlooked the
double jeopardy issue” (ECF No. 26 at 11). As discussed above, Petitioner’s Double Jeopardy
Clause challenge is procedurally barred for failure to raise it during his direct appeal. However,
whether Mr. Peacock was deficient in failing to raise that issue “before, at, and after trial” is an
argument that pertains to whether he was ineffective at trial and thus may be raised herein (ECF
No. 26 at 11). The government argued in response that Mr. Peacock was not ineffective because
an attorney cannot be ineffective for failing to raise a frivolous argument. The Court agrees.
Because the Double Jeopardy Clause is plainly not implicated in this case, Petitioner can
demonstrate no prejudice by Mr. Peacock’s failure to raise it. United States v. Winfield, 960 F.2d
970, 974 (11th Cir. 1992) (“[A] lawyer’s failure to preserve a meritless issue plainly cannot
prejudice a client.”). Therefore, Petitioner’s claim fails the Strickland standard and thus should be
denied.
4. Counsel’s Failure to Call Additional Witnesses to Attest to Use ofthe
Laptop
Petitioner’s fourth sub-claim alleges that Mr. Peacock was deficient in his choice of which
witnesses to call He states that Mr. Peacock failed to call C. Davis and should have “parad[ed] a
half dozen [witnesses] before the jury” that would have testified they used the computer at various
times (ECF No. 26 at 13). Petitioner claims he was prejudiced by the failure to call Davis and
others because the jury was unable to see corroboration of his defense that others used the
computer.
At trial, Mr. Peacockcalled three witnesses who all testified that the computer was a family
computer, that it was openly accessible by anyone in the Bates’ household, and that Bates let
anyone use it. Additionally, Petitioner’s expert, Mr. Connor, testified that one of the folders that
had the child pornography in it was accessible by other computers connected to the same wireless
28

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 29 of 34

network as the laptop at issue. Despite this evidence, Petitioner alleges that if counsel had called
other witnesses, and specifically Davis, it would have shown that others used the computer at issue
and that he was prejudiced by Mr. Peacock’s failure to do so.
As to the fact witnesses, first, the defense called Rosemary Russell Mrs. Russell was
Petitioner’s sister-in-law (the sister of his wife). Mrs. Russell testified that she would be at
Petitioner’s house frequently and at varying times of the day (CRDE404 at 1662-14). She testified
that she had seen the computer at issue in the Bates’ residence as well as at her father’s house (Id.
at 167:1-2). She testified that she has also seen other people use the computer on multiple occasions
and that it was not uncommon to seethe computer being used by people at the Bates’ household
{Id. at 167:19-25). Kelly Russell similarly testified that he visited the Bates’ house regularly {Id.
at 173:25), that he identified the computer as “being the family computer,” {id. at 174:7), and that
others, including himself, have used the computer (Id. at 175:7-16). Petitioner’s then-wife, Barbara
McCourtney Bates, testified that she had purchased the computer new with her husband, had used
the computer, and has seen others using the computer (Id. at 189:16-25). Mrs. Bates also testified
to a specific instance when Davis’ girlfriend, Des, used the computer to look up the signs and
symptoms ofMRSA (Id. at 192:9-24). As to Davis’ specific use of the computer, Mrs. Bates and
Mr. Peacock engaged in the following back and forth:
Mr. Peacock: Let me ask you about [C.] Davis. Was that Ben’s best friend?
Mrs. Bates: Yes.
Mr. Peacock: Was he over at the house frequently?
Mrs. Bates: Yes.
Mr. Peacock: Did you ever see [C.] Davis use the computer, which is
Government’s Exhibit 36?
Mrs. Bates: Yes.
Mr. Peacock: Did you check up on what he was using the computer for?
Mrs. Bates: No.
Mr. Peacock: Would it be unusual in the Bates’ household to see him or his
friends jumping on the computer for one reason or another?
Mrs. Bates: Absolutely not.
Mr. Peacock: And when I say, the computer, I mean this particular
computer.
29

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 30 of 34

Mrs. Bates: That is correct.
{Id. at 190-91). Petitioner contends that Mr. Peacock should have, after receiving Davis’ Grand
Jury testimony, called Mr. Davis and the five identified users from that testimony as witnesses
because Mr. Davis admitted to using the computer at issue (ECF No. 26 at 13). Petitioner has not
identified any unique testimony that Mr. Davis would have offered other than the fact that he used
the computer, evidence which was presented to the jury through both Det. Valentine and Mrs.
Bates. In fact, Petitioner acknowledges that Mr. Davis would have denied downloading child
pornography (ECF No. 26 at 13).
“Which witnesses, if any, to call and when to call them, is the epitome of a strategic
decision.” Waters, 46 F.3d at 1512. Although Mr. Peacock did not call Mr. Davis, his failure to do
so was not deficient or do to a lack of understanding. As shown above, Mr. Peacock did understand
the crux of the government’s argument (that Mr. Bates was the user of the computer downloading
child pornography) and put forth an adequate defense (that Mr. Bates was not the only user of the
computer, and therefore others may have downloaded the pornography). The record further shows
that counsel was well-aware of Davis’ testimony to the Grand Jury, as he used it to impeach the
case agent and to support an inference that the sheriffs office failed to fully investigate the source
of the illicit activity.14
To the extent that Petitioner claims he suffered prejudice from counsel’s failure to call the
additional witnesses, counsel is not required to call additional witnesses to present “redundant or
cumulative evidence.” Ford v. Hall, 546 F.3d 1326, 1338 (11th Cir. 2008) (citing Jennings v.
McDonough,490 F.3d 1230, 1244 (11th Cir. 2007, cert, denied, 552U.S. 1298 (2008); Marquad

14 Detective Valentine acknowledged on cross-examination that he was aware thatC. Davis had testified to the Grand
Jury, but denied knowing, in response to defense counsel’s questions, that Davis testified that he had used the
computer. Counsel then questioned Valentine about his efforts to interview a series ofother individuals who had been
in the home and used the computer, elicited a series ofresponses revealing that the detective had not made efforts to
interviewthem(CRDE 408 at 235—37).

30

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 31 of 34

v. Sec ’yfor Dep’tof Corr.,429 V.3d 1278, 1307 (11th Cir. 2005)). Counsel almost always can do
more, but the question is whether counsel acted reasonably. Putman v. Head, 268 F.3d 1223, 1245
(11th Cir. 2001).
Counsel did call witnesses to prove this defense by calling Mr. and Mrs. Russell and Mrs.
Bates to demonstrate that others not only had access to the computer, but actually used it. There is
no reasonable probability that if counsel would have called six, seven, or any other number of
people to testify to essentially the same facts that three other witnesses had unequivocally stated
that the result would have been different; that is, that a jury would have acquitted as opposed to
convicted Petitioner. See Waters 46 F.3d at 1512 (finding that counsel was not required to put
forward redundant evidence stating “[t]here is much wisdom for trial lawyers in the adage about
leaving well enough alone.”). Any additional witnesses that testified that they, or others used the
computer would have been redundant or cumulative to that of Mr. and Mrs. Russell and Mrs. Bates.
The evidence pointing to Petitioner as the user that was downloading child pornography
was significant. Through the four day trial the prosecution was able to demonstrate that the
pornography was downloaded at various locations that only Petitioner went (CRDE 409 at 10708, 112-13); it was downloaded at times when Petitioner’s personal files, such as paralegal files,
were accessed in close proximity to the child pornography files being accessed and the downloads
occurring (CRDE 409 at 264-66); and that Petitioner at first admitted to downloading the files but
claimed it had been an accident (CRDE 408 at 192-93).
Accordingly, I find that Petitioner suffered no prejudice by Mr. Peacock not calling Davis
and the five other identified witnesses as their testimony would be redundant and cumulative and
thus Petitioner’s claim fails to demonstrate actual prejudice and fails the Strickland test.
Petitioner’s Reply also cites to Johnson v. Zerbst, Gideon v. Wainwright; Strickland v.
Washington-, and Powell v. Alabama for the general proposition that if a defendant does not receive
31

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 32 of 34

effective assistance of counsel then the court lacks jurisdiction to punish him (ECF No. 32). 304
U.S. 458 (1938); 372 U.S. 335 (1963); 466 U.S. 668 (1984); 287 U.S. 45 (1932). While Petitioner
is correct that a defendant’s failure to receive effective assistance of counsel divests the court of
jurisdiction to punish him, there has been no showing here that his counsel was ineffective in
representing him. Therefore, the Court did have jurisdiction to render its judgment and sentence.
As such, I recommend that Petitioner’s claims for ineffective assistance of counsel be denied.
5. Failure to Object to the Two-Level Enhancement for Distribution
In his final claim, Bates faults counsel for not arguing enough at sentencing against the
application of a two-level enhancement for the knowing distribution of child pornography. Counsel
filed written objections prior to sentencing to the application of the enhancement based on
evidence that the subject computer downloaded images using peer-to-peer software and argued at
the sentencing hearing that the Court had the discretion, under the circumstances, to not apply the
enhancement (CRDE 390). Bates argues now, having not raised the argument on direct appeal,
that there was no evidence of distribution. The government in opposition notes only that Bates was
convicted of distribution without elaboration. Having reviewed the trial transcript, the undersigned
recommends the Court deny this claim.
At trial, there was evidence admitted that Bates distributed child pornography from the
computer. Det. Valentine describe his ability to pull a file containing child pornography from the
computer named in the indictment on June 1, 2012 (CRDE 408 at 145-46)); the government argued
in its closing argument that this evidence supported a conviction for the crime of distribution
charged in Count 5. The detective who conducted the search of the computer similarly testified
that the computer was engaged in file sharing:
Q. Now, peer-to-peer, it goes both ways; is that also correct?
A. Depending on user setting, yes. That’s the purpose is to distribute files.
Q. Was this computer, in fact, distributing files?
A. Yes.
32

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 33 of 34

(CRDE404 at219). Detective Ray proceeded then to explain how he determined that, forensically.
As explained above more fully, the overwhelming evidence that it was Bates’ computer and that
he alone was responsible for the illicit activities conducted on it. Counsel’s failure to avoid the
enhancement for distribution accordingly was decidedly not deficient, as the enhancement was
firmly supported by both the law and the evidence at trial.
f. No Need for Evidentiary hearing
Although § 2255 mandates that a court conduct an evidentiary hearing unless the motion
and record conclusively show that the movant is entitled to no relief, a petitioner must support his
allegations with at least a proffer of some credible supporting evidence. See, e.g., Chandlery.
McDonough,All F.3d 1360, 1363 (11th Cir. 2006); Scottv. United States, 325 F. App’x 822, 824
(11th Cir. 2009) (where a § 2255 motion is supported by nothing more than generalized allegations
that are affirmatively refuted from the record, no evidentiary hearing is necessary); see also Hill
v. Moore, 175 F.3d 915, 922 (11th Cir. 1999) (“To be entitled to an evidentiary hearing on this
matter [an ineffective assistance of counsel claim], petitioner must proffer evidence that, if true,
would entitle him to relief.”). A hearing is not required on frivolous claims, conchisory allegations
unsupported by specifics, or contentions that are wholly unsupported by the record. See, e.g,
Peoples v. Campbell, 311 F.3d 1208, 1237 (11th Cir. 2004); Aronv. United States, 291 F.3d 708,
715 (11th Cir. 2002) (no evidentiary hearing is required “where the petitioner’s allegations are
affirmatively contradicted by the record, or the claims are patently frivolous”).
As discussed above, Bates has not adequately supported his claims with credible evidence.
We conclude that the pending Motion can be decided from the record that evidences conclusively
that Bates is not entitled to relief. Consequently, we need not conduct an evidentiary hearing on
his § 2255 Motion. See 28 U.S.C. §2255; see also Gordon v. United States, 51% F.3d 1291, 1301
(11th Cir. 2008) (“An evidentiary hearing is not required when ‘the motion and the files and
33

Case 2:17-cv-14364-KMM Document 47 Entered on FLSD Docket 01/02/2020 Page 34 of 34

records of the case conclusively show that the prisoner is entitled to no relief.’” (quoting 18 U.S.C.
§ 2255)). Bates’s reliance on Williams v. United States, 660 F. App’x 847, 850 (11th Cir. 2016),
is misplaced. The Eleventh Circuit there held that contested fact issues cannot be decided on
affidavits alone, and that an evidentiary hearing is required to determine any fact that, if contested,
would entitle Petitioner to relief. Id. at 850. In this case there are no such contested facts, the record
as a whole conclusively shows that Bates is not entitled to relief and no hearing is required.
Pursuant to Local Magistrate Rule 4(b) and Fed. R. Civ. P. 73, the Parties have fourteen
(14) days from service of this Report and Recommendation within which to file written objections,
if any, with the District Judge. Failure to timely file objections shall bar the Parties from de novo
determination by the District Judge of any factual or legal issue covered in the Report and shall
bar the Parties from challenging on appeal the District Judge’s Order based on any unobjected-to
factual or legal conclusions included in the Report. See 28 U.S.C. § 636(b)(1); 11th Cir. Rule 3-1;
Patton v. Rowell, 2017 WL 443634 (11th Cir. Feb. 2, 2017); Cooley v. Commissioner of Social
Security, 2016 WL 7321208 (11th Cir. Dec. 16, 2016).
RESPECTFULLY SUBMITTED in Chambers at Miami, Florida, this 2nd day of
January 2020.

LAUREN LOUIS
UNITED STATES MAGISTRATE JUDGE
Copies FumishedTo:
The Honorable K. Michael Moore
CounselofRecord
Pro Se Petitioner
Cameron Dean Bates
Coleman Low Federal Correctional Institution
Inmate Mail/Parcels
PostOffice Box 1031
Coleman, FL 33521

34

USCA11 Case: 20-10700

Date Filed: 03/15/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10700-H
CAMERON DEAN BATES,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida

Before: GRANT and LAGOA, Circuit Judges.
BY THE COURT:
Cameron Bates has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s February 5, 2021, order denying a certificate of appealability (“COA”) and
in forma pauperis (“IFP”) status on appeal from the denial of his underlying 28 U.S.C. § 2254
habeas corpus petition. Upon review, Bates’s motion for reconsideration is DENIED because he
has offered no new evidence or arguments of merit to warrant relief.

Additional material
from this filing is
available in the
Clerk's Office.

